INTHE
Supreme Court of the United States

JOAQUIN MARIO CIPRIANO-ORTEGA,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Vincent J. Brunkow, appointed to represent the petitioner under the Criminal
Justice Act, certify that on July 8, 2020, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed In Forma Pauperis in the abovecaptioned case were served by first-class mail, postage prepaid, to respondent's
counsel. I further certify that all parties required to be served have been served.
Service was addressed as follows:
Noel Francisco
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioner

